                          UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                                Washington, DC 20415



   Office of the                   November 15, 2011"
Inspector General	                                                      Report No. 4A-CF-00-11-051


            MEMORANDUM FOR JOHN BERRY
                                    Director	                                           ~
            FROM:	                  PA1RICK E. McFARLAND
                                    Inspector General
                                                                   /?   h
                                                                   Ct/41/.
                                                                               t-1f}7#

            SUBJECT:	               Audit of the Office of Personnel Management's Fiscal Year
                                    2011 Special-Purpose Financial Statements


            This memorandum transmits KPMG LLP's (KPMG) report on the Office of Personnel
            Management's (OPM) Fiscal Year 2011 Closing Package Financial Statements and the
            results of the Office of the Inspector General's (OIG) oversight ofthe audit and review of
            that report. OPM's Closing Package Financial Statement Reports include the reclassified
            balance sheets, the statements of net cost, the statements of changes in net position, and
            the accompanying notes as of September 30, 2011 and 2010; the Additional Note No. 31;
            and the trading partner balance sheets, the statements of net cost, and the statements of
            changes in net position as of September 30, 2011 (hereinafter collectively referred to as
            the special-purpose financial statements). These special-purpose financial statements
            directly link the entities' audited consolidated department-level fmancial statements to
            the Financial Report of the Government (the government-wide financial statements).

            We contracted with the independent certified public accounting firm KPMG to audit
            OPM's special-purpose financial statements as of September 30,2011 and 2010. The
            contract requires that the audit be done in accordance with generally accepted government
            auditing standards and the Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements.

            KPMG reported that OPM's special-purpose financial statements are presented fairly, in
            all material respects. KPMG noted no matters involving the internal control over the
            financial process for the special-purpose financial statements that are considered a
            material weakness or significant deficiency. KPMG disclosed no instances of
            noncompliance or other matters that are required to be reported. The objectives of
            KPMG's audits of the special-purpose financial statements did not iriclude expressing an
            opinion on internal controls or compliance with laws and regulations, and KPMG,
            accordingly, does not express such opinions.




        www.opm.gov	                                                                           www.usajobs.gov
John BelTY                                                                                2


DIG Evaluation of KPMG's Audit Performance

In connection with the audit contract, we reviewed KPMG's report and related documentation
and made inquiries of its representatives regarding the audit. To fulfill our audit
responsibilities under the Chief Financial Officers Act for ensuring the quality of the audit
workperfonned, we conducted a review ofKPMG's audit ofOPM's Fiscal Year 2011 and
2010 special-purpose financial statements in accordance with Government Auditing Standards
(GAS). Specifically, we:

   •	  reviewed KPMG's approach and planning of the audit;
   •	  evaluated the qualifications and independence of its auditors;
   •	  monitored the progress ofthe audit at key points;
   •	  examined its working papers related to planning the audit and assessing internal
       controls over the fmancial reporting process;             .
    •	 reviewed KPMG's audit reports to ensure compliance with GAS;
    •	 coordinated issuance of the audit report; and
    •	 performed other procedures we deemed necessary.

Our review, as differentiated from an audit in accordance with generally accepted
government auditing standards, was not intended to enable us to express, and we do not
express, opinions on OPM's special-purpose financial statements. KPMG is responsible
for the attached auditor's report dated November 15,2011, and the conclusions expressed
in the report. However, our review disclosed no instances where KPMG did not comply,
in all material respects, with the generally accepted GAS.

If you have any questions about KPMG's audit or our oversight, please contact me or
have a member of your staff contact Michael R. Esser, Assistant Inspector General for
Audits, a t _ .

Attachment


cc: Dennis Coleman

    Acting Chief Financial Officer



    Deputy Chief Financial Officer
